           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



        QUICK DISABILITY
        DETERMINATIONS


     May 2007     A-01-07-17035




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      May 31, 2007                                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Quick Disability Determinations (A-01-07-17035)


           OBJECTIVE

           Our objectives were to (1) determine whether cases selected for Quick Disability
           Determinations (QDD) were processed within the guidelines established by the Social
           Security Administration (SSA) and (2) identify any possible improvements to the QDD
           process.

           BACKGROUND

           SSA established the QDD process under its new Disability Service Improvement (DSI)
           initiative in the Boston region to enhance the Agency’s current disability determination
           process. 1 QDD claims are initial disability claims that are electronically-identified by a
           predictive model as involving a high potential that:
               • The claimant is disabled;
               • Evidence of the claimant’s allegations can be easily and quickly obtained; and
               • The case can be processed within 20 calendar days of receipt in the Disability
                 Determination Services (DDS). 2



           1
            SSA provides monthly benefits to disabled individuals under Title II and Title XVI of the Social Security
           Act §§ 223 et seq. and 1611 et seq., 42 U.S.C. §§ 423 et seq. and 1382 et seq. The Commissioner of
           SSA began planning DSI in 2001 after a discussion with the President and first informed the Congress of
           changes to the disability process in July 2003. DSI is being piloted in SSA’s Boston region and applies to
           disability claims filed beginning August 1, 2006 for residents of Connecticut (CT), Maine (ME),
           Massachusetts (MA), New Hampshire (NH), Rhode Island (RI), and Vermont (VT). See Appendix B for
           additional background on DSI.
           2
             SSA, Program Policy Online (PPO), reference: 008302432. If a case cannot be adjudicated to a fully-
           favorable allowance within 20 days, or if there is an unresolved disagreement between the disability
           examiner and the medical or psychological expert, the claim is removed from the QDD process.
Page 2 - The Commissioner

As the DDS assesses the medical evidence to determine whether the claimant is
disabled under the Social Security Act, the SSA field office staff assess the non-
medical factors of eligibility, such as evaluating work activity or developing proof of
age. 3 If a claim is selected for QDD processing, the SSA field office is required to
complete all necessary non-medical development as quickly as possible, with a goal of
no more than 20 calendar days. 4

To perform this review, we obtained a file of all initial disability claims selected for QDD
processing through October 31, 2006. We analyzed disability determination records,
benefit records and electronic disability folder information for these 667 individuals. We
also obtained a file of all claims—27,648 in total, including the QDD cases—designated
as DSI cases through October 31, 2006 and analyzed disability determination records
for these cases. (See Appendix C for additional information on our scope and
methodology.)

RESULTS OF REVIEW

We found that SSA generally made medical determinations for claims selected for QDD
processing within the standards established for the pilot. Additionally, based on
feedback we provided during our review, the Agency is in the process of improving its
controls over the development of the non-medical aspects of QDD claims. However, as
SSA rolls out QDD beyond the Boston region, it should refine the selection process
based on the results of the cases processed during the DSI pilot in Boston.

CASES SELECTED FOR QDD PROCESSING

As of October 31, 2006, about 2.4 percent (667 claims) of all DSI cases had been
selected for QDD processing. As shown in Table 1, SSA made 79 percent of medical
allowance determinations within the 20-day standard set for the QDD pilot in the Boston
region—with an average processing time of 10 days (including quality reviews).
However, SSA exceeded the 20-day standard for a portion (16 percent) of medical
allowance decisions processed in the first few months of the pilot. Additionally,
5 percent of the claims were not medically allowed.




3
    SSA, Program Operations Manual System (POMS), DI 11010.125.
4
    SSA, PPO, reference: 008302432.
Page 3 - The Commissioner

              Table 1: Summary of QDD Medical Determinations for
                      Claims Filed through October 31, 2006
                            Finding                        Cases   Percent
          Medically Allowed—20 days or less                  527    79.0%
          Medically Allowed—more than 20 days                107    16.0%
          Not Medically Allowed                               33     5.0%
          Total                                              667    100%

Table 2 shows the breakout of the 667 cases selected for QDD processing though
October 31, 2006 by SSA program—Disability Insurance (DI) or Supplemental Security
Income (SSI)—and by State.


           Table 2: Summary of QDD Medical Determinations by State

                                                                   Total By
               State        CT    MA       ME    NH   RI    VT
                                                                   Program
          DI Only
          Allowed            96   171       36   28   40     28        399
          Not Allowed         3       10    0     1    3      2          19
          SSI Only
          Allowed            20   113       8    10    8      6        165
          Not Allowed         2        6    0     2    0      0          10
          Both DI and SSI
          Allowed            17       38    0     6    6      3          70
          Not Allowed         1        2    0     1    0      0             4

          Total By State    139   340       44   48   57     39        667
Page 4 - The Commissioner

Terminal Illnesses      Of the 667 cases selected for QDD, 142 had a terminal (TERI)
Cases                   case indicator. SSA or DDS staff may manually indicate a claim
                        is a TERI case if the claimant has an impairment which medical
records indicate is untreatable (i.e., the impairment cannot be reversed and is expected
to end in death). Cases with a TERI indicator must be handled in an expeditious
manner because of their sensitivity. 5 Of the 142 QDD claims which were also TERI
cases, 136 were allowed and 6 were not allowed. 6

                     Although only 5 percent of the 667 cases selected for QDD were
Claim Not
                     not medically allowed, we analyzed these 33 cases further since
Allowed
                     one of the factors considered when selecting a case for QDD
                     processing is its high potential that the claimant is disabled.
Table 3 summarizes the reasons why these 33 claimants were not allowed benefits.

                         Table 3: Reasons QDD Cases Not Allowed
        Able to perform past work                                                                 7
        DI claim only – not disabled at date last insured for disability                          6
        Impairment(s) caused limitations but was not disabling                                    7
        DI claim only – died during waiting period before decision was made                       5
        Impairment(s) not expected to remain disabling for 12 months                              4
        Returned to SSA field office for additional non-medical development                       1
        Able to perform work other than past employment                                           2
        Impairment did not limit activities                                                       1
        Total                                                                                   33

Based on our review of these cases, it appeared that the claims were appropriately
selected for QDD processing, based on information the claimants initially provided to
SSA.

COMPARISON OF CASES SELECTED AND NOT SELECTED FOR QDD

From the file of all DSI cases, we isolated the claims not selected for QDD processing
that were medically allowed and compared the average DDS processing time to that of
cases selected for QDD—based on the most frequently occurring diagnoses in the




5
    SSA, POMS DI 23020.045.
6
 Of the six TERI claims not allowed, (a) three claimants died during the waiting period and were not
eligible for benefits and (b) SSA determined that three claimants were not disabled.
Page 5 - The Commissioner

QDD cases. 7 The 361 claims selected for the QDD with 1 of the top 10 diagnoses (as
shown in Table 4) were adjudicated in 13 days, on average, and those not selected for
QDD—with the same diagnoses—were adjudicated in 50 days, on average.

                       Table 4: Primary Diagnoses of Allowed Cases 8
                                              Cases Selected for           Cases Not Selected
                                                    QDD                         for QDD
                  Diagnosis                   Number       Average         Number  Average
                                                of        Processing          of  Processing
                                               Cases         Time           Cases    Time
       Lung Cancer                              104          13 days         128         42 days
       Premature – Birth Weight
       Under 1200 grams                          44          5 days           93         35 days
       Colon, Rectal or Anal Cancer              35          13 days          55         50 days
       Breast Cancer                             33          11 days          75         48 days
       Chronic Renal Failure                     33          20 days          84         49 days
       Autistic Disorders                        27          19 days         216         67 days
       Leukemia                                  24          12 days          29         39 days
       Ovarian Cancer                            23          14 days          18         43 days
       Liver Cancer                              19          11 days          15         40 days
       Kidney Cancer                             19          15 days          12         39 days
       Total                                    361         13 days          725         50 days


PAYMENTS WERE NOT ALWAYS EXPEDITED

SSA should improve its controls to ensure that non-medical development (such as
verification of income or date of birth) of claims selected for QDD is expedited so that
                                                                               9
beneficiaries are paid quickly after the Agency determines they are disabled. SSA

7
 The Social Security Act § 223(d)(1)(A), 42 U.S.C. § 423(d)(1)(A) defines the term disability for SSA’s
programs and requires that an individual’s inability to work must be related to a medically determinable
physical or mental impairment(s). SSA tracks these impairments by codes—in most cases, using the
diagnosis codes found in International Classification of Diseases, Ninth Revision, Clinical Modification
(National Center of Health Statistics and Centers for Medicare and Medicaid Services). SSA, POMS,
DI 26510.015.
8
  The claimants’ alleged impairment(s) is only one of the criteria used by SSA’s predictive modeling
software for making QDD selections. This chart shows the top 10 primary diagnosis codes for the
claimants selected for QDD processing and found to be disabled: 1620, 7650, 1530, 1740, 5850, 2990,
2070, 1830, 1550 and 1890, respectively.
9
  Even though SSA did not have effective controls to ensure that non-medical development for QDD
claims was expedited, the Agency initiated payments within 22 days of transmitting the case to the DDS,
on average, for claimants who were medically allowed in fewer than 20 days.
Page 6 - The Commissioner

field office staff were instructed to complete all non-medical development as soon as
QDD claims are transferred to the DDS for the medical decision. Of the 667 cases
selected for QDD processing, 16 claimants (or 2.4 percent) were determined to be
disabled but had not been paid at the time of our review. These claimants had been
waiting up to 5 months after the DDS found them disabled for the Agency to finish the
non-medical development and initiate payments. Of these 16 claims:
          •    6 were SSI claims that could have been paid as soon as the DDS made its
               medical decision;
          •    8 were DI claims that could have been paid because the waiting period had
               already passed when the DDS allowed the claim; and
          •    2 were DI claims for which the waiting period ended soon after the DDS
               allowed the claim (in October 2006 and January 2007 respectively).

We referred these cases to the SSA Regional Office on January 18, 2007, and the
Agency took immediate action to expedite their completion. Specifically, the day after
we referred the cases to the Agency, the Boston Regional Office began preparing
instructions for all field offices on identifying and monitoring QDD cases and completing
non-medical development quickly. SSA issued interim procedures on
February 13, 2007 and formal procedures on March 15, 2007 to make sure payments
for QDD claims are not delayed in any Agency component.

SSA SHOULD REFINE THE QDD SELECTION PROCESS

As QDD is expanded beyond the Boston region, the number of cases, workload issues
and resources may be a concern for the Agency. SSA should refine the QDD selection
process based on the results of the pilot to focus resources on expediting benefits to
the greatest number of claimants possible who can immediately receive benefits.

Of the 667 cases selected for QDD processing, 249 (or 37 percent) were claims for SSI
benefits—whether SSI only or concurrent DI/SSI. SSI eligibility provides cash
assistance and immediate access to medical coverage (generally through Medicaid in
                                                                   10
most States) to needy individuals who are disabled, blind or aged.

The remaining 418 cases selected for QDD were DI claims only. The Social Security
Act states that a DI beneficiary is eligible to receive payments after serving a waiting
period of 5 consecutive calendar months throughout which he or she has been under a
disability (i.e., 5 full months after the date SSA establishes as the onset of his
disability). 11 DI eligibility generally provides access to medical coverage through
Medicare after the beneficiary serves a waiting period of 24 months. 12

10
  The Social Security Act §§ 1601, et seq., as amended, and 1902(a)(10)(C), 42 U.S.C. §§ 1381, et seq.,
and 1396a(a)(10)(C).
11
     The Social Security Act § 223(a)(1)(E), 42 U.S.C. § 423(a)(1)(E).
12
     The Social Security Act § 226(b), 42 U.S.C. § 426(b).
Page 7 - The Commissioner

Table 5 shows the length of time the 418 DI claimants were in their waiting period on
the day their claims were selected for QDD—based on the date they alleged their
disability began. 13 Of these 418 claimants, 136 (about 32.5 percent) were early in their
waiting period when DDS received their claims. If these 136 claims had not been
                                                                                     14
selected for QDD and had been adjudicated within SSA’s average processing time,
these claimants would have been allowed by the first date they were eligible to receive
benefits. Additionally, the Agency could have used those QDD resources to expedite
cases for SSI claimants or DI claimants at the end of or beyond their waiting period.

                       Table 5: Waiting Period When Case Selected for QDD
                           Waiting Period                Number of Cases         Percent
           Waiting Period Not Begun Yet                            14                3.4%
                  st
           In 1 Month of Waiting Period                            47               11.2%
                  nd
           In 2        Month of Waiting Period                     39                9.3%
                  rd
           In 3 Month of Waiting Period                            36                8.6%
           Subtotal                                               136               32.5%

           In 4th Month of Waiting Period                          42               10.0%
                  th
           In 5 Month of Waiting Period                            27                6.5%
           Waiting Period Completed                               213               51.0%
           Subtotal                                               282               67.5%

           TOTAL                                                  418                100%




13
  Of the 418 DI only claims, 399 were medically allowed. For 93 percent of the allowances, SSA
established the onset of disability the same date alleged by the claimant or later.
14
  For the period October through December 2006, SSA processed disability claims in the Boston region in
97 days, on average. SSA’s goal for average processing time for initial disability claims in Fiscal
Year 2007 is 93 days. SSA, Performance Plan for FY 2007, p. 7, February 2006.
Page 8 - The Commissioner

CONCLUSION AND RECOMMENDATIONS
Although SSA is in the early stages of implementing the QDD process, claims selected
for QDD processing were completed sooner than those claims completed through
SSA’s normal (non-QDD) process. However, as SSA expands QDD beyond the Boston
region in the coming years, workload issues and resources may be a concern. The
Agency should fine-tune the QDD process and the predictive model used to select QDD
cases based on the results of the cases processed during the pilot in Boston.

Therefore, we recommend SSA:

1. Ensure that non-medical aspects of QDD claims processing are expedited.

2. Consider refining the QDD selection process in the future—prior to rolling it out to
   another region—to focus on SSI claims and DI claims at the end of or beyond the
   statutorily required waiting period.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with Recommendation 1 but did not concur with Recommendation 2 due to
the cost of systems reprogramming. (See Appendix D for SSA’s comments.)

We understand that the Agency has limited resources and, according to the Agency, it
would be costly to reprogram the QDD predictive model at this time. However, SSA
should consider making the changes necessary to implement our recommendation
when future programming changes are made. We believe individuals who will
immediately benefit from expediting processing (those with SSI claims and DI claims at
the end of or beyond the statutorily required waiting period) should receive priority over
individuals who might benefit from receiving an allowance determination prior to their
eligibility for benefits.




                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Disability Service Improvement

APPENDIX C – Scope and Methodology

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                             Appendix A

Acronyms
ALJ      Administrative Law Judge
CFR      Code of Federal Regulations
CT       Connecticut
DDS      Disability Determination Services
DI       Disability Insurance
DSI      Disability Service Improvement
FedRO    Federal Reviewing Official
NH       New Hampshire
MA       Massachusetts
ME       Maine
POMS     Program Operations Manual System
PPO      Program Policy Online
QDD      Quick Disability Determinations
RI       Rhode Island
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
VT       Vermont
                                                                              Appendix B

Disability Service Improvement
The Commissioner of the Social Security Administration (SSA) began working on
improvements to the Agency’s disability determination process in 2001 after a
discussion with the President. On September 25, 2003, the Commissioner presented a
new approach to disability determination to the Congress. 1 The final regulations for the
Disability Service Improvement (DSI) process were published March 31, 2006. 2

The final DSI regulations provide for:
     • A quick disability determination process for those who are obviously disabled.
       Favorable decisions would be made in such cases within 20 days after the claim is
       received by the State disability determination agency.
     • A new Medical-Vocational Expert System to enhance the expertise needed to
       make accurate and timely decisions—composed of a Medical-Vocational Expert
       Unit and a national network of medical, psychological and vocational experts who
       meet qualification standards established by the Commissioner.
     • A new position—the Federal Reviewing Official (FedRO)—that will review State
       agency determinations upon the request of the claimant. This will eliminate the
       reconsideration step of the current appeals process.
     • Retention of the right to request a de novo hearing and decision from an
       Administrative Law Judge (ALJ) if the claimant disagrees with the decision of the
       FedRO.
     • Closing the record after the ALJ issues a decision, with provision for certain good
       cause exceptions to this rule.
     • A new body—the Decision Review Board—to review and correct decisional errors
       and ensure consistent adjudication at all levels of the disability determination
       process. The current Appeals Council will be phased out.

The Agency’s goals for DSI are to:
     • Make the right decision as early in the process as possible;
     • Provide for consistent decision-making nationally and at all adjudicative steps;
     • Improve documentation through clearly articulated determinations and decisions;



1
 The Commissioner also briefed the Congress on the Agency’s disability programs on
September 30, 2004, September 27, 2005, March 14, 2006, June 15, 2006, and February 14, 2007.
2
    20 C.F.R. § 405 et seq.


                                                B-1
     • Ensure that decisions are legally sustainable and follow SSA’s policy; and
     • Strengthen quality review mechanisms at all adjudicative steps.

DSI applies to disability claims filed beginning August 1, 2006 for residents of the
Boston region (Maine, New Hampshire, Vermont, Massachusetts, Rhode Island, and
Connecticut). 3 After full implementation in the Boston region, SSA plans to monitor the
changes and collect management information before implementing DSI in a second
region.




3
    SSA, Program Policy Online (PPO), reference 788309977.


                                                  B-2
                                                                     Appendix C

Scope and Methodology
To accomplish our objective, we:

 Reviewed applicable sections of the Social Security Act and Social Security
  Administration (SSA) regulations, rules, policies, and procedures.

 Reviewed the Commissioner’s testimony before the Subcommittee on Social
  Security of the House Committee on Ways and Means on June 15, 2006 on the
  Disability Service Improvement (DSI) process.

 Reviewed the Disability Determination Services (DDS) Performance Management
  Report showing the average time from DDS receipt of a case to the DDS clearance.

 Obtained a file of all 667 claims selected for Quick Disability Determination (QDD)
  processing between August 1, 2006 and October 31, 2006.

      1. For each of the cases selected for QDD processing, we:

         a) Reviewed SSA’s systems, including the Disability Determination Services
            Query, the Master Beneficiary Record, the Supplemental Security Record,
            the Disability Control File, and the electronic disability folder.

         b) Calculated the number of days it took the Agency to complete the medical
            determination (including quality reviews) after the claim was selected for
            QDD processing.

         c) Calculated the number of days it took the Agency to complete all actions to
            initiate payments—for claimants who were medically allowed—after the
            claim was selected for QDD processing.

      2. For each of the 418 claims for DI benefits only, we obtained the alleged onset
         date at time of application and the claim was selected for QDD processing.
         From these dates, we determined how far into the waiting period each case
         was when it was selected for QDD. Additionally, we determined—for the
         397 DI only claims that were medically allowed—whether the disability onset
         date established by SSA differed from the date alleged by the claimant.

 Obtained a file of all claims designated as DSI cases between August 1, 2006 and
  October 31, 2006. After removing duplicate Social Security numbers and the
  667 cases selected for QDD processing, there were 26,981 claims not selected for
  QDD. From this file, we isolated the 7,307 claims that were medically allowed as of
  February 1, 2007. For each of these 7,307 cases, we:


                                         C-1
   1. Reviewed SSA’s systems, including the Disability Determination Services Query,
      the Master Beneficiary Record, the Supplemental Security Record, the Disability
      Control File, and the electronic disability folder.

   2. Calculated the number of days it took the State Agency to complete the medical
      determination after the claim was transferred to the DDS.

We conducted our audit between January and February 2007 in Boston,
Massachusetts. The entities audited were the Office of Disability Programs under the
Deputy Commissioner for Disability and Income Security Programs and the Office of
Disability Determinations under the Deputy Commissioner for Operations. We
conducted our audit in accordance with generally accepted government auditing
standards.




                                        C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      May 8, 2007                                                           Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Quick Disability Determinations" (A-01-
           07-17035)—INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                       D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "QUICK DISABILITY DETERMINATIONS" (A-01-07-17035)

Thank you for the opportunity to review and comment on the draft report. Our responses to the
specific recommendations are provided below.

Recommendation 1

The Social Security Administration (SSA) should ensure that non-medical aspects of Quick
Disability Determinations (QDD) claims processing are expedited.

Comment

We agree. As with any new process, we need to continually reinforce the initial training. So, as
noted in the draft report (page 6, first full paragraph), “SSA issued interim procedures on
February 13, 2007 and formal procedures on March 15, 2007 to make sure payments for QDD
claims are not delayed in any Agency component.”

In addition, the Boston region has developed a Workload Action Control system to make it easier
to identify and take timely action on these cases. It appears to be working well to solve the issue
raised.

Recommendation 2

SSA should consider refining the QDD selection process in the future, prior to rolling it out to
another region, to focus on Supplemental Security Income claims and Disability claims at the end
of, or beyond, the statutorily required waiting period.

Comment

We disagree. We have seriously considered this recommendation, and for the reasons stated
below, we will not implement it at this time:

   The predictive model is run through the Electronic Disability Collect System, not the
   Modernized Supplemental Security Income Claims System or the Modernized Claims
   System. Accordingly, it cannot tell whether a case is Title II or Title XVI or if a waiting
   period applies. To change this would require costly systems reprogramming.

   The onset date, which determines when the 5-month waiting period begins, is an allegation at
   the beginning of the process. It isn’t until the actual disability determination is done that the
   exact onset date is determined. Until then, we cannot know where the claimant is in terms of
   satisfying the 5-month waiting period.

   There are public policy benefits to making a determination as early in the process as possible,
   regardless of cash benefit status. Examples include: resolving claimant anxiety; having an


                                              D-2
SSA determination for purposes of other public or private benefits; and, allowing individuals
to notify private entities, such as landlords, loan companies, and health insurance providers,
that they will have an income in the near future, thus possibly avoiding eviction or
postponing collection activities.




                                          D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

   David Mazzola, Audit Manager, (617) 565-1807

Acknowledgments

In addition to those named above:

   Phillip Hanvy, Senior Program Analyst


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-07-17035.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
